Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants 
to the National City Police DepartmentNational City, California




GR-90-03-013


May 2003
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the National City Police Department (NCPD).  The purpose of the grants is to enhance community policing.  The NCPD was awarded a total of $1,075,778 to hire 9 new police officers and redeploy the equivalent of 14 existing full-time police officers from administrative duties to community policing.
We reviewed the NCPD's compliance with seven essential grant conditions and found no weaknesses in:  budgeting for local officer positions, hiring of additional officers, source of local match, community policing and retention of officer positions.  We found weaknesses in advance/reimbursement requests and redeployment.  As a result of the deficiencies identified below, we question $358,744 in grant funds received.

The NCPD charged the COPS UHP III grant costs that exceeded the limit established in the Financial Clearance Memo.

The NCPD could not document the actual redeployment of sworn officers FTEs into community policing activities for the MORE 96 and MORE 98 grants.

The items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.